No. 19-873

 

 

IN THE

Supreme Court of the United States

GEOPHYSICAL SERVICE, INC.,

Petitioner,
v.

TGS-NOPEC GEOPHYSICAL Co.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,932 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 20, 2020.

    

COLIN CASEY/HOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
